No J20 'fnfcSD
IN THE

Supreme Court of the United States
Clarence B. Jenkins Jr.,
Petitioner,
v.
South Carolina Department of Employment Workfo_rce,
:
South Carolina Budget and Control Board and Office
Of South Carolina Governor
Respondents,

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the federal circuit
PETITION FOR A WRIT OF CERTIORARI REPLY BRIEF

z
Clarence B. Jenkins Jr.
945 Wire Rd.
Neeses, South Carolina 29107
(803)263-4514
Upscale81 @yahoo.com
Pro Se Petitioner
Counsel ofRecord

RECEIVED
FEB - 9 2021
SUPREME*CO if CLERK
RT. U.S.

QUESTIONS PRESENTED
United States District Court, Columbia Division Dismissed Complaint against
Defendants citing that Pro Se Plaintiff did not filed in federal court after United States
Equal Employment Opportunity Commission issued a Right to Sue letter. The United
States Fourth Circuit Court of Appeals improperly issued an ORDER denying Pro Se
Petitioner for a re-hearing citing no judicial misconduct and Pro Se Petitioner’s petition
for judicial review could not be addressed because of being cited for the first time in
Petitioner’s Reply Brief. The OPINIONS of the United States District Court, Columbia
Division and United States Fourth Circuit Court of Appeals were not incompliance with
facts, laws and Pro Se Petitioner’s Initial Brief and Reply Brief as cited. The United
States of America in 1964 decided that it is was unlawful to discriminate against another
human being because of color of their skin by denying basic rights to life and liberty with
the Title VII of the Civil Rights Act of 1964 and Civil Rights Act of 1991.
Discrimination Laws were used to abused and harass a certain race of people specifically
black citizens by establishing the white people as superior that violated their rights under
U S. Constitution. Institutional Racism has lead to discrimination of Systemic Racism
therefore have been the arm that prevent all mankind from obtaining the rights of
afforded by U S. Constitution where every person is treated equally.
The Question Presented is:
(1). Did the OPINION of U.S. District Court, Columbia Division to Dismiss Complaint
was based on FACTS and LAWS. (2). Did the U.S. District Court, Columbia Division
and U.S. Fourth Circuit Court of Appeals improperly did not considered new evidence in
Plaintiffs Reply dated June
2019 that was obtained May 29, 2019 from NEOGOV
directly disputing the previous claims made by Respondents.(3). Did the United States
Fourth Circuit Court of Appeals wrongfully denied judicial review for judicial
misconduct by U.S. District Court, Columbia Division in their OPINION that Pro Se
Petitioner made application of such for the first time in Reply Brief.

li

TABLE OF CONTENTS

QUESTIONS PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES

1
11
111

PETITION FOR A WRIT OF CERTIORARI

1

JURISDICTION

1

STATEMENT
REASONS FOR GRANTING THE WRIT
(I).
(II).

(III).

2,3
3,4,5

Did the OPINION of US. District Court, Columbia Division
to Dismiss Complaint was based on FACTS and LAWS
Did the U.S. District Court, Columbia Division and U.S.
Fourth Circuit Court of Appeals improperly did not
considered new evidence in Plaintiffs Reply dated June
2019 that was obtained May 29, 2019 from NEOGOV
directly disputing the previous claims made by Respondents
Did the U.S. Fourth Circuit Court of Appeals wrongfully
denied judicial review for judicial misconduct by District
Court, Columbia Division in their OPINION that Pro Se
Petitioner made application of such for the first time in Reply
Brief

CONCLUSION

5

Ill

APPENDIX

la

APPENDIX A, Plaintiffs Reply
dated June
2019

APPENDIX B, Pro Se Petitioner’s USEEOC Charge
dated June 5, 2019.............................
APPENDIX C, USEEOC Right to Sue letter
dated June 11, 2019..........................
APPENDIX D, Pro Se Petitioners USEEOC Charge
dated September 17, 2019.................
APPENDIX E, USEEOC Right to Sue letter.............
dated September 20, 2019

TABLE OF AUTHORITIES

CONSTITUTION and STATUES
14th Amendment of The U.S. Constitution
Title VII of the Civil Rights Act of 1964.
28U.S.C. 1254(1)..................................

2,3,5
3,4

1

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari
To review the judgment of the Unites States Court of
Appeals for the Federal Circuit.

JURISDICTION
The Federal Circuit entered judgment on August 10, 2020.
Pro Se Petitioner is making this direct appeal the COURT. The
COURT has jurisdiction under 28 U.S.C 1254(1)

2

STATEMENT
It is illegal to discriminate against any citizen in The United States of America. The 14th
Amendment of The United States Constitution guarantees every person the rights and
privileges to be treated equally without harm. And the illegal employment fraudulent
stipulation of “Barred From Applying and NEPOTISM” by the South Carolina
Department of Employment Workforce, South Carolina Budget and Control Board and
Office of the South Carolina Governor has caused great harm without responsibility and
accountability to Pro Se Petitioner. Pro Se Petitioner is seeking to acquire the rights and
privileges afforded to him by 14th Amendment of The US. Constitution. Pro Se
Petitioner filed a new complaint with United States Equal Employment Opportunity
Commission(hearafter USEEOC) on June 6, 2019 upon receiving new evidence from
NEOGOV as May 29, 2019 disputing the claims by Respondents. The USEEOC issued
a Right to Sue letter to Petitioner on June 11, 2019 based on Complaint and evidence
obtained from NEOGOV that required filing a lawsuit in federal court because of
ongoing litigation in U S. District Court. The Right to Sue letter from USEEOC issued
on June 11, 2019 was obtained as litigation was proceeding and active therefore the
Complaint against Respondents should have not been dismissed against South Carolina
Department of Employment Workforce. Pro Se Petitioner filed a Complaint against South
Carolina Department of Administration on September 17, 2019 based on the substantial
new evidence from NEOGOV establishing that Respondents

3

committed Title VII Civil Rights Violations Act f 1964 and others by directly placing
blame for “Barred From Applying and NEPOTISM. The USEEOC issued a Right to Sue
letter on September 20, 2019 authorizing Pro Se Petitioner to bring suit in federal court.
And therefore the Complaint should have not been Dismissed but allowed to proceed
against all Respondents for Title VII of Civil Rights Act of 1964 and other federal laws.

REASONS FOR GRANTING WRIT
Respondents in their OPPOSITION BRIEF submitted January 14, 2021 has AFFIRMED
that Title VII of the Civil Rights Act of 1964 claims against South Carolina Department
of Employment Workforce was viable by US. District Court Magistrate Judge, Paige J.
Gossett and Pro Se Petitioner Initial Informal Brief to U S. Fourth Circuit Court of
Appeals brought forth claims of judicial misconduct at US. District Court, Columbia,
Division. The ORDERS by U S. Magistrate Judge, Paige J. Gossett and U S. Fourth
Circuit Court of Appeals does not support what are FACTS and ACTIONS that has been
submitted to the COURT and verified NOW AFFIRMED by the Respondents in their
OPPOSITION BRIEF. And the AFFIRMATION of such intentional act to harm is a
continuing of SYSTEMIC RACISM, INSTITUTIONAL RACISM, DISCRIMINATION,
RETALIATION AND GOVERNMENT CORRUPTION which the COURT should not
be a participator but a lawful body that provides equal justice afforded to every person
under the 14th Amendment of U S. Constitution.

4

I.

Did the OPINION of U.S. District Court, Columbia Division
To Dismiss Complaint was based on FACTS and LAWS

Respondents in their OPPOSITION BRIEF has verified and AFFIRMED that Magistrate
Judge, Paige J. Gossett found that Title VII of the Civil Rights Act of 1964 was viable
claim against South Carolina Department of Employment Workforce based on substantial
evidence.
II.

Did the U.S. District Court, Columbia Division improperly
did not considered new evidence in Plaintiffs Reply date
June $1, 2019 that was obtained May 29, 2019 from NEOGOV
directly disputing the previous claims made by Respondents.

In Plaintiff s Reply Brief to U.S. District Court, Columbia Division dated June {1^, 2019
submitted new substantial evidence from NEOGOV that was obtained May 29, 2019
verifying illegally, discrimination and retaliation acts by Respondents. Pro Se Petitioner
did not have information from NEOGOV therefore could not have submitted it to the
COURT at the time of filing suit in U.S. District Court, Columbia Division. Pro se
Petitioner filed a Complaint with USEEOC regarding new evidence from NEOGOV.
USEEOC issued a Right to Sue Letter to Complainant on June 11, 2019 therefore
authorizing permission to seek damages in federal court. Pro Se Petitioner filed a
Complaint against South Carolina Department of Administration on September 17, 2019
based on substantial new evidence from NEOGOV that was obtained as May 29, 2019
verifying illegal, discrimination and retaliation by Respondents. The USEEOC issued a
Right to Sue letter on September 20, 2019 authorizing to bring suit in federal court
therefore claims against all Respondents was viable for Title VII of Civil Rights Act of
1964. The Dismissal by U.S. District Court, Columbia Division and U.S. Fourth Circuit
Court of Appeals were not based on evidence, facts and the law. See documents.

m.

Did the U.S. Fourth Circuit Court of Appeals wrongfully denied
judicial review for judicial misconduct by U.S. District Court,
Columbia Division in their OPINION that Pro Se Petitioner
made an application of such for the first time in Reply Brief.

Respondents in their OPPOSITION BRIEF has verified and NOW AFFIRMED that Pro
Se Petitioner’s Initial Informal Brief properly addressed judicial misconduct and failure
of DUE PROCESS before the U.S. Fourth Circuit Court of Appeals. The OPINION of
the U.S. Fourth Circuit Court of Appeals citing that Pro Se Petitioner addressed judicial
misconduct and failure of DUE PROCESS in Reply Brief is not in alignment with
verifiable facts of Petitioner’s Initial Informal Brief. Pro Se Petitioner has to conclude
that the verifiable conduct of the U.S. Forth Circuit Court of Appeals based on facts is
Systemic Racism, Institutional Racism, Discrimination that United States of America has

5

tried to eradicate itself from inception with the U S. Constitution and other federal and
state laws that guarantees every person equal rights and privileges.

CONCLUSION

The COURT should grant Certiorari.

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
Clarence B. Jenkins Jr.

) c/a noZ-lft-!gr?9'7Z2c/"Ar&

Plaintiff,

)

) PLAINTIFF’S REPLY

v.

)
)

S.C. Department of Employment Workforce,)
S.C. Administration and Office of South
)
Carolina Governor.
)
)
)
)

Defendants,

Defendants sought to deceived Pro Se Plaintiff and the U.S. District Court
through deception which is very clear with newly discovered evidence from NEOGOV
the software provider as ofMay 22, 2019, May 23, 2019 and May 29, 2019. Plaintiff has
constantly and consistently stated to the COURT and provided written evidence of
Defendants’ deception to cover up the truth regarding a secret blackballing with “barred
from Applying” and “ This candidate has been marked as Does not meet minimum
qualification”.
Defendants stated during Discovery that they objected to many request for
information and did not provide a responsc(s). Defendants also stated that many
i espouses to Discovery would require excessive use of government time and resources
therefore did not any responsc(s). Furthermore. Defendants stated that some questions
during Discovery was intelligible and did not provide rcsponsc(s). Plaintiff argues that
Defendants used unsubstantiated excuses to not answer questions submitted as part of
1

Discovery because it would have exposed the truth, an intentional and deliberate act to
harm and a conspiracy of a cover up regarding the secret blackballing of “Barred from
Applying”.
NEOGOV the software provider stated on May 22, 2019 and May 23, 2019 after a
simple email requesting information that “Barred from Applying” was a feature of the
system and not a system error. NEOGOV stated they have no knowledge of any system
error with regards to “Barred from Applying” because it is a feature that users personnel
staff have access to it. NEOGOV also stated that it is used to flag an applicant when they
submits an application. NEOGOV stated that “Barred From Applying” has to be
manually enabled which was done by Adrienne Sorenson of SCDEW. NEOGOV stated
on May 29, 2019 that only the customer(SCDEW) can explain their usage when Plaintiff
was seeking understanding of how an applicant can received fifteen rejections email of
February 3, 2012 within minutes of each other at estimated one(l) hour. NEOGOV has
emphatically stated that “Barred from Applying” is a feature and not a system error that
was an intentional and deliberate act to harm Plaintiff. Defendants participated in a
conspiracy to cover up the truth by providing distortions to Plaintiff and to the COURT.
I he information from NEOGOV was provided by Myesha Mack, Customer Success
Manager. See attachments.
Plaintiff has provided substantial verifiable evidence to the COUR T that has been
ignored time and time again to benefit the corruption of Defendants which is unlawful.

2

WHEREFORE, Plaintiff s motion this COURT to deny the Defendants’ motion
for Sanction because it is without cause. And NEOGOV has produced evidence that
Defendants intentionally and deliberately sought to cover the truth and exposed corrupt
practices as part of a conspiracy to harm. Plaintiffs motion this COURT to ordered
Defendants provide answers to Discovery that was intentionally and deliberately omitted
to cover up a crime(s).

June ft, 2019

Clarence B, Jenkins Jr
Clarence B. Jenkins Jr.
945 Wire Rd.
Neeses, South Carolina 29107
(803) 263-4514
Pro Se Plaintiff

3

5/31/2019

Yahoo Mail - Re: Barred

Re: Barred
From: Mykesha Mack (mmack@neogov.net)
To:

upscale81@yahoo.com

Date: Wednesday, May 29, 2019, 11:53 AM EDT

Dear Mr. Jenkins,
Unfortunately, NEOGOV does not have any information regarding customer usage of our services. Any detail regardinq
customer usage must be directed to that customer.
Thank you,

Neverforget how amazing you arel
Customer Success Manager
NEOGOV
Support: 877-204-4442

j On Wed, May 29, 2019 at 4:33 AM Clarence Jr <UDscale81@vahoo.com> wrote:
t

Ms. Mack:
I am seeking an explanation to the last email sent regarding the extensive email rejection letters on February 3
2012 per the process of what could have happened. Please reply.
Clarence Jenkins Jr

message.

1/1

5/31/2019

Yahoo Mail - Re: Barred From Applying

Re: Barred From Applying
From: Mykesha Mack (mmack@neogov.net)
To:

upscale81@yahoo.com

Date: Thursday, May 23, 2019, 6:24 PM EDT

Hello Mr. Jenkins,
NEOGOV has no knowledge of any system error as the Barred from Applying feature is a feature that has to be
manually enabled by a user.
Thank you,

Neverforget how amazing you are!
Customer Success Manager
NEOGOV
Support: 877-204-4442

On Thu, May 23, 2019 at 2:48 PM <upscale81 @vahoo.cnm> wrote:
! Ms. Mack:

l am seeking whether the Barred From Applying can be a system error as claim by SCDEW without malfunction of
the entire system and does Barred from From Applying with dates of July 19, 2013 to December 30, 2018 as It
was applied to me is a system error.. Please reply
; Clarence Jenkins Jr.

message.

1/1

5/31/2019

Yahoo Mail - Re: Barred

Re: Barred
•

<

<

i

From: Mykesha Mack (mmack@neogov.net)
To:

upscale81 @yahoo.com

Date: Wednesday, May 29, 2019, 1:42 PM EDT

Hello Mr. Jenkins,
systemS*em 'S ^ ^ ^ US6rS

therefore, on'y the users can explain the action they may or may not take in the

Thank you,

Neverforget how amazing you are!
Customer Success Manager
NEOGOV
Support: 877-204-4442

On Wed, May 29, 2019 at 9:08 AM Clarence Jr <upscale81@vahoo.com> wrote:
I

i

• Ms. Mack:
i

.
•

I can not get any answers only lies or non responses. I am only asking what would cause for that many
applications to be rejected on a specific date and constantly as February 3, 2012.1 know there was a corrupt
purpose in doing so. I am trying to understand the system. Please reply.
Clarence Jenkins

message.

1/1

5/22/2019
Yahoo Mail - Re: Fw: Barred From Aplying

,

Fw: Barred From Aplying
From: Mykesha Mack (mmack@neogov.net)
To:

upscale81@yahoo.com

Date: Wednesday, May 22, 2019, 1:30 PM EDT

Dear Mr. Jenkins,

aN^r^

s not have
’ use.
~

use of the

Thank you,

Neverforget how amazing you are!
Customer Success Manager
NEOGOV
0 NEOGOV^ 21 ’ 2019 8t 10:11 AM Clarence Jr> Via Customer SuPP°rt <£llSl2mmiR[Ml@r]^gQyjlfil> wrote:

Please see email from Mr. Ed therefore expectations Is that NEOGOV
will honored this by providing the all and
proper documentations with a complete narrative.
Clarence Jenkins Jr

Forwarded Message —
From: Ed Cavazos <ecavazos@neoaov.com>
_______
To: Clarence Jr <upscale81@vahoo.rnm>
Sent: Monday, May 20, 2019 4:51 PM
Subject: Re: Barred From Aplying
Dear Mr. Jenkins side and
-_______ ,

1/2

5/22/2019

;

Yahoo Mail - Re: Fw: Barred From Aplying

' Regards,
'Ed Cavazos

On Mon, May 20, 2019 at 1:53 PM Clarence Jr <upscale81 @vahoo.com> wrote:
SC Admin, SCHAC, SCDEW, USEEOC and NEOGOV:
I have sent all an email requesting a response of a deliberate act of secretly blackballing declared a system
error when verifiable evidence suggest efforts of a Conspiracy to deny the truth. Since newly discovered
evidence found as of May 18, 2019 on NEOGOV Web Page under product design of INSIGHT at 21 to 23
sec. mark, where selecting Pass/Fail will delete all applicants and their scores for a position which is a clear
indication as to why OTHER was chosen for me with This candidate has been marked as "Barred From
Applying" (Does not meet minimum qualification) and This candidate has been mark as "Barred from Applyinq'
per NEOGOV.
3 3
A non response means GUILTY according to verify facts. Please reply.

Clarence Jenkins Jr.

message.

message.

2/2

EEOC Form 5 (11/09)

Charge of Discrimination

Charge Presented To:

This form is affected by the Privacy Act of 1974. See enclosed Privacy Act
Statement and other information before completing this form.

Agency(ies) Charge No(s):

FEPA

436-2019-01095

X EEOC

South Carolina Human Affairs Commission

and EEOC

State or localAgency, ifany

$
Name (indicate Mr., Ms, Mrs)

Mr. Clarence B Jenkins
Street Address

Home Phone

Year of Birth

(803) 263-4514

1968

City, State and ZIP Code

945 Wire Rd, NEESES, SC 29107
Named is the Employer, Labor Organization, Employment Agency, Apprenticeship Committee, or State or Local Government Agency That I Believe Discriminated
Against Me or Others. {Ifmore than two, list under PARTICULARS below)
Name

Phone No.

No. Employees, Members

SOUTH CAROLINA DEPARTMENT OF EMPLOYMENT WORKFORCE
Street Address

(803) 737-2400

City, State and ZIP Code

1550 Gadsden Street, COLUMBIA, SC 29202
Name

No. Employees, Members

Street Address

City, State and ZIP Code

DISCRIMINATION BASED ON (Checkappropriate box(es).)

s■E

Phone No.

RACE

|

| COLOR

RETALIATION
|

|

I I AGE

| SEX

|

|

| DISABILITY

| RELIGION

| OTHER (Specify)

□
□

DATE(S) DISCRIMINATION TOOK PLACE
Earliest
Latest
NATIONAL ORIGIN

07-19-2013

06-03-2019

GENETIC INFORMATION

THE PARTICULARS ARE (ifadditionalpaper is needed, attach extra sheet(s)):

E

CONTINUING ACTION

I have substantial documentation that South Carolina Department of Employment Workforce (SCDEW) applied an illegal
stipulation 'Barred from applying from 7/19/2013 to 12/30/2018. Upon notification to state officials all declared that it was a
system error which was deliberate and intentional distortion to deceived.
Mykesha Mack, Customer Success Manager of NEOGOV has stated on May 23,2019 that the Barred feature used on my account
was not a system error which is manually enabled by a user, Adrienne Sorenson of SCDEW.
Sorenson applied the 'bar' to my account, preventing me from applying for vacant position from July 19,2013 to December 30,
2018 this was a deliberate action taken against me.
The 'bar' is and was intentionally used to flag an applicant to prevent employmentby users personnel staff therefore not a
system error. The software company, NEOGOV has emphatically stated 'Barred From Applying' is a feature of die system. All
parties sought to fraudulent impede an investigation by USEEOC stating the 'Barred From Applying' was a system error.
The state of South Carolina stated that notifications would be sent to prospective employers informing them to ignored 'Barred
I want this charge filed with both the EEOC and the State or local Agency, if any. I will
advise the agencies if I change my address or phone number and I will cooperate fully with
them in the processing of my charge in accordance with their procedures.
I declare under penalty of perjury that the above is true and correct.

Digitally signed by Clarence Jenkins on 06-06-2019 05:46 PM EDT

NOTARY - When necessary hr State andLocalAgency Requirements

I swear or affirm that I have read the above charge and that it is true to the
best of my knowledge, information and belief.
SIGNATURE OF COMPLAINANT

SUBSCRIBED AND SWORN TO BEFORE ME THIS DATE
{month, day, year)

U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
Greenville Local-Office
Landmark Building
301 North Main Street, Suite 1402
Greenville, SC 29601
Intake Information Group: (800) 669-4000
Intake Information Group TTY: (800) 669-6820
Greenville Status Line: (866) 408-8075
Direct Dial: (864)241-4401
TTY (864) 241-4403
FAX (864) 241-4416
Website: www.eeoc.gov

1

June 11,2019

Clarence B. Jenkins, Jr.
945 Wire Rd.
Neeses, SC 29107

Re:
Jenkins versus SOUTH CAROLINA DEPARTMENT OF EMPLOYMENT
WORKFORCE
EEOC Charge No.: 436-2019-01095
Dear Mr. Jenkins:
The processing of your charge of employment discrimination in the above referenced matter has
been completed. The Equal Employment Opportunity Commission (EEOC) is dismissing your
charge and is issuing to you a Notice of Right to Sue.

6

The evidence obtained by the Commission indicates that your allegation of discrimination, based
on your sex, Male, age, and retaliation. You alleged you were denied hire by Respondent based
on your protected class. You also allege Respondent blocked your emails preventing you from
applying for all vacant positions based on your protected class. The commission acknowledges
your allegations however, after careful review your allegations were found untimely.
In view of these facts, it is unlikely that further investigation of your charge will result in a
finding that a violation of the law(s) under which you filed your charge has occurred. For that
reason, we have dismissed your charge and closed your file.

r

Enclosed you will find a Dismissal Notice of Right to Sue and an Information Sheet which
describes your right to pursue the matter in court by filing a lawsuit within 90 days of your
receipt of the dismissal notice. This 90-day period for filing a private lawsuit cannot be waived,
extended or restored by EEOC.
I regret that we cannot be of further assistance to you in this matter.
Sincerely,

Kimberly Ambersley
Sr. Investigator
Enclosures

V

7
U.S. Equal Employment Opportunity Commission

EEOC Form 161 (11/16)

Dismissal and Notice of Rights
To:
’

I

From:

Clarence B. Jenkins, Jr.
945 Wire Rd.
Neeses, SC 29107

□
EEOC Charge No.

Greenville Local Office
301 North Main St
Suite 1402
Greenville, SC 29601

On behalf of person(s) aggrieved whose identity is
CONFIDENTIAL (29 CFR §1601.7(a))
EEOC Representative

436-2019-01095

Telephone No.

Kimberly L. Ambersley,
Investigator

(864)241-4408

THE EEOC IS CLOSING ITS FILE ON THIS CHARGE FOR THE FOLLOWING REASON:
|

|

The facts alleged in the charge fail to state a claim under any of the statutes enforced by the EEOC.

□
□
□
m
□
□

Your allegations did not involve a disability as defined by the Americans With Disabilities Act.
The Respondent employs less than the required number of employees or is not otherwise covered by the statutes.
Your charge was not timely filed with EEOC; in other words, you waited too long after the date(s) of the alleged
discrimination to file your charge
The EEOC issues the following determination: Based upon its investigation, the EEOC is unable to conclude that the
information obtained establishes violations of the statutes. This does not certify that the respondent is in compliance with
the statutes. No finding is made as to any other issues that might be construed as having been raised by this charge.
The EEOC has adopted the findings of the state or local fair employment practices agency that investigated this charge.
Other (briefly state)

- NOTICE OF SUIT RIGHTS (See the additional information attached to this form.)
‘^itle VII, the Americans with Disabilities Act, the Genetic Information Nondiscrimination Act, or the Age
Discrimination in Employment Act: This will be the only notice of dismissal and of your right to sue that we will send you.
Vou may file a lawsuit against the respondent(s) under federal law based on this charge in federal or state court. Your
lawsuit must be filed WITHIN 90 DAYS of your receipt of this notice; or your right to sue based on this charge will be
lost. (The time limit for filing suit based on a claim under state law may be different.)
Equal Pay Act (EPA): EPA suits must be filed in federal or state court within 2 years (3 years for willful violations) of the
alleged EPA underpayment. This means that backpay due for any violations that occurred more than 2 years (3 years)
before you file suit may not be collectible.
On bi

I

the Commission

/
Enclosures(s)
cc:

Allen W. Nickles, III
NICKLES LAW FIRM, LLC
4430 Ivy Hall Drive
Columbia, SC 29206

^ Patricia B. Fuller,
Local Office Director

6

z'

(Date Mailed)

j-y

tf

EEOC Form 5 (11/09)

Charge of Discrimination

Agency(ies) Charge ,
No(s):

Charge Presented To:
FEPA
Xl EEOC

This form is affected by the Privacy Act of 1974. See enclosed Privacy Act
Statement and other information before completing this form.

436-2019-01214

South Carolina Human Affairs Commission

and EEOC

State or local Agency, if any
Name (Indicate Mr., Ms., Mrs.)

Mr. Clarence B Jenkins
Street Address

Home Phone

Year of Birth

(803) 263-4514

1968

City, State and ZIP Code

945 Wire Rd., NEESES, SC 29107

''

’

Named is the Employer, Labor Organization, Employment Agency, Apprenticeship Committee, or State or Local Government Agency
That i Believe Discriminated Against Me or Others, {if more than two, fist under PARTICULARS below.)
Name

No. Employees, Members

Phone No.

201 - 500

(803) 734-8120

SOUTH CAROLINA DEPARTMENT OF ADMINISTRATION
Street Address

City, State and ZIP Code

Wade Hampton Building, Suite 460 1200 Senate Street, PO Box 2825, COLUMBIA, SC 29211
Name

No. Employees. Members

Street Address

City, State and ZIP Code

DISCRIMINATION BASED ON (Check appropriate box(es).}
| X 1 RACE

|

| COLOR

I X I RETALIATION
|

Phone No.

j

|

| SEX

| AGE

|

| OTHER (Specify)

|

□
□

[ RELIGION

| DISABILITY

DATE(S) DISCRIMINATION TOOK PUCE
Earliest
Latest
NATIONAL ORIGIN

07-22-2013

09-05-2019

GENETIC INFORMATION
|

| CONTINUING ACTION

THE PARTICUURS ARE (if additional paper is needed, attach extra sheet(s)):

From 2013 until 2015,1 applied for various vacant South Carolina State Agency positions. Immediately
after applying for the positions, I received rejection statements and was not considered for interviews for
any of the positions that I am positive I was fully qualified for. I have found evidence that I was Barred
from Applying for state employment and once I presented this evidence, I began to be chosen for
interviews for positions, but not receiving the positions due to the agency choosing another candidate.
As of May 2019, NEOGOV has stated Barred from Applying is a feature of the product and not a system
error, which SCDEW and SC Administration had falsely stated in written responses to me. As of
September 2019, SCDEW and SC Admin has failed to provide me with verification of a request to ignore
Barred from Applying sent to prospective employers that had received notification. As of August 2019,
SC Office of Inspector General (SCOIG) Director, Brian Lamkin, had stated that SCDEW and SCHR are to
investigate a false claim of NEPOTISM applied to master profile. As of September 2019, there has been
no report provided to me as regarding the false claim of NEPOTISM by SCOIG, SCDEW and SCHR. South
Carolina State Government Officials at several agencies were informed by written communications of the
I want this charge filed with both the EEOC and the State or local Agency,
if any. I will advise the agencies if I change my address or phone number
and I will cooperate fully with them in the processing of my charge in
accordance with their procedures.
I declare under penalty of perjury that the above is true and correct.

Digitally signed by Clarence Jenkins on 09-17-2019 08:18
PM EDT

NOTARY - When necessary for State and Local Agency Requirements

I swear or affirm that I have read the above charge and that it
is true to the best of my knowledge, information and belief..
SIGNATURE OF COMPUINANT

SUBSCRIBED AND SWORN TO BEFORE ME THIS DATE
(month, day, year)

U.S. Equal Employment Opportunity Commission

EEOC Fom) 161 (11(16)

Dismissal and Notice of Rights
To:

From:

Clarence B. Jenkins, Jr.
945 Wire Rd.
Neeses, SC 29107

□
EEOC Charge No.

Greenville Local Office
301 North Main St
Suite 1402
Greenville, SC 29601

On behalf of person(s) aggrieved whose Identify is
CONFIDENTIAL 129 CFR S1601.7(a))
EEOC Representative

436-2019-01214

Ashley D. Smith,
Investigator Support Assistant

Telephone No.’
(864) 241-4409

THE EEOC IS CLOSING ITS FILE ON THIS CHARGE FOR THE FOLLOWING REASON:
|
l The facts alleged In the charge foil to state a claim under any of the statutes enforced by the EEOC.
|

I

Your allegations did not involve a disability as defined by the Americans With Disabilities Act.

|

|

The Respondent employs less than the required number of employees or is not otherwise covered by the statutes.

IX l

Your charge was not timely filed with EEOC; in other words, you waited too long after the date(s) of the alleged
discrimination to file your charge

I

l

|

|

The EEOC issues the following determination: Based upon its Investigation, the EEOC is unable to conclude that the
information obtained establishes violations of foe statutes. This does not certify that the respondent is in compliance with
foe statutes. No finding is made as to any other issues that might be construed as having been raised by this charge.
The EEOC has adopted foe findings of foe state or local fair employment practices agency that investigated this charge.

I

|

Other (briefly state)

• NOTICE OF SUIT RIGHTS -

(See the additional Information attached to this form.)
Title VII, the Americans with Disabilities Act, the Genetic Information Nondiscrimination Act, or the Age
Discrimination in Employment Act: This will be the only notice of dismissal and of your right to sue that we will send you.
You may file a lawsuit against the respondent(s) under federal law based on this charge in federal or state court. Your
lawsuit must be filed WITHIN 90 DAYS of your receipt of this notice; or your right to sue based on this charge will be
lost. (The time limit for filing suit based on a claim under state law may be different.)
Equal Pay Act (EPA): EPA suits must be filed in federal or state court within 2 years (3 years for willful violations) of the
alleged EPA underpayment This means that backpay due for any violations that occurred more than 2 years (3 years)
before you file suit may not be collectible.

SEP % 0
Enclosures^)
cc:

Patricia B. Fuller,
Local Office Director

David K. Avant
Chief Legal Counsel
SC DEPARTMENT OF ADMINISTRATION
1200 Senate Street
Columbia, SC 29201

(Date Mailed)

i

